i
REPLY APPENDIX CONTENTS
City of Bainbridge Island’s Motion to Publish
Decision, Washington Court of Appeals
filed Dec. 30, 2019 ........................................... A-1
Washington State Department of Ecology Response
to Petitioners’ Motion to Supplement the Record,
Superior Court of Washington State for County of
Kitsap (excerpts), dated Sept. 1, 2017 ........... B-1
City of Bainbridge Island Response in Opposition to
Petitioners’ Motion to Authorize Supplementation
of the Record, Superior Court of Washington
State for County of Kitsap (excerpts),
dated Sept. 1, 2017.......................................... C-1
City of Bainbridge Island’s Response to Motion to
Modify Ruling, Washington Court of Appeals
(excerpts), filed April 20, 2018 ....................... D-1
City of Bainbridge Island’s Response to Petitioners’
Motion for Reconsideration, Washington Court
of Appeals (excerpts), filed Jan. 21, 2020....... E-1
City of Bainbridge Island’s Response Brief,
Washington Court of Appeals (excerpts),
filed Oct. 15, 2018 ............................................F-1
City of Bainbridge Island’s Answer to Motion for
Discretionary Review, Washington Court of
Appeals (excerpts), filed Dec. 1, 2017............. G-1

Reply Appendix A-1
FILED
Court of Appeals Division I
State of Washington
12/30/2019 2:38 PM
IN THE COURT OF APPEALS
OF THE STATE OF WASHINGTON
DIVISION I
NO. 80092-2-I
PRESERVE RESPONSIBLE SHORELINE
MANAGEMENT, et. al.,
Petitioners,
v.
CITY OF BAINBRIDGE ISLAND, et. al.,
Respondents,
MOTION TO PUBLISH OPINION
I.

IDENTITY OF MOVING PARTY

This Motion is presented by Greg A. Rubstello and
James Haney on behalf of the Respondent City of
Bainbridge Island (“City”). Both Mr. Rubstello and
Mr. Haney have served multiple decades as City
Attorneys. Both are practitioners of land use law in
Washington State, and practice in the area of
administrative land use law under Chapters 36.70A,
36.70B and 36.70C RCW. The Unpublished Opinion
(hereinafter, the “Decision”) in the above-captioned

Appendix A-2
matter clarifies important legal principles for
attorneys who practice before the Washington State
Growth Management Hearings Board and in judicial
LUPA proceedings.
II.

RELIEF SOUGHT

Pursuant to Rule of Appellate Procedure (“RAP”)
12.3(e), the City requests that this Court publish the
Decision issued on December 9, 2019 in the abovecaptioned matter. A copy of the Decision is attached
as Exhibit A.
The Decision clarifies two significant principles of
Washington law regarding the significance of the
making of the administrative record in local
administrative proceedings appealable to the Growth
Management Hearings Board (“Board”), particularly
where constitutional issues may be argued in a
subsequent appeal to the superior court. First, the
Decision determines for the first time by an appellate
court that judicial review of a decision of the Board is
limited to the administrative record, even when
constitutional issues may be raised by the appellant.
The decisions states with certainty that a motion to
supplement the administrative record with additional
testimony is properly denied by the superior court.
Second, the Decision clarifies the difference between
an appeal of an administrative action under the APA
(Chapter 34.05 RCW) and an appeal under LUPA
(Chapter
36.70C
RCW)
with
respect
to
supplementation of the record on appeal. The issues
addressed in the Decision are of substantial public
interest and will aid practitioners of local
administrative land use proceedings, as well as
litigants, practitioners and the judiciary in addressing

Appendix A-3
constitutional issues raised in the courts in APA
cases.
III.

FACTS RELEVANT TO THIS MOTION

Preserve Responsible Shoreline Management
(“Petitioner”) sought review of the superior court’s
decision denying its motion to supplement the
administrative record made on appeal of the City’s
Shoreline Master Plan following an unsuccessful
appeal to the Board. The background facts and
arguments of the parties are detailed in the attached
unpublished decision and will not be repeated here.
IV.

GROUNDS FOR RELIEF AND
ARGUMENT

The City moves to publish the Decision pursuant
to RAP 12.3(e), which provides as follows:
(e) Motion To Publish. A motion
requesting the Court of Appeals to
publish an opinion that had been ordered
filed for public record should be served
and filed within 20 days after the opinion
has been filed. The motion must be
supported by addressing the following
criteria: (1) if not a party, the applicant’s
interest and the person or group
applicant represents; (2) applicant’s
reasons for believing that publication is
necessary; (3) whether the decision
determines an unsettled or new question
of law or constitutional principle; (4)
whether the decision modifies, clarifies
or reverses an established principle of
law; (5) whether the decision is of
general public interest or importance; or

Appendix A-4
(6) whether the decision is in conflict
with a prior opinion of the Court of
Appeals.
A.

Publication Is Necessary To Clarify
That The Courts Will Not Allow An
APA Administrative Record To Be
Supplemented For Consideration
Of Constitutional Claims.

The Decision’s publication would assist all local
government administrative law litigants, practicing
land use attorneys. The Decision is the first
Washington appellate court holding to explicitly and
comprehensively answer the question of whether an
administrative record first appealed to the Board can
be supplemented on appeal to the superior court for
consideration of constitutional issues not considered
by the Board. Because the Board has exclusive
jurisdiction of the initial appeal of local government
land use actions on the basis of claims of violation of
the Growth Management Act (Ch. 36. 70A RCW), the
Decision, if published, would provide authoritative
clarity for citizens, property owners, the land use bar
and judiciary on the need to make a record in local
government administrative proceedings necessary to
later argue constitutional claims in the superior court.
Specifically, the Decision, if published, will aid all
LUPA litigants and their attorneys in knowing when
to timely make the record necessary for argument of
constitutional claims not heard or considered in APA
appeals to the Board. The Petitioner in this case
would have benefited from the earlier publication of
an appellate court decision on this issue. For this
reason, the Decision will add significant value to the

Appendix A-5
existing body of APA related authority in local land
use proceedings.
The Decision also clarifies the distinction in the
relevant statutes between LUPA proceedings and
APA governed appeals to the Board, with respect to
the ability of the courts to supplement an
administrative record on appeal for consideration of
constitutional claims not considered by the Board.
B.

The Decision Is of General Public Interest
and Importance.

If published, the Decision would provide strong
and clear guidance to litigants, legal practitioners,
and the judiciary regarding the raising and hearing of
constitutional claims raised on appeal of local land use
administrative decisions. Such matters are of broad
and significant importance in the context of appealing
the actions of local government in its administration
of the GMA. The Decision clarifies existing law and
shows the importance of developing a record at the
local level that will allow consideration of all claims,
including constitutional claims, that may be raised on
appeal to the superior courts.
The issues addressed in the Decision are of broad
and substantial public interest and are particularly
important to attorneys and the judiciary in part
because constitutional claims are frequently raised
together with other claims of violation of the GMA
and/or SEPA. Publication of the Decision will prevent
the confusion experienced by Petitioner in this case.
The Decision is worth adding to the established body
of law in Washington State. As a document to guide
future conduct of local land use law litigants and
practitioners, the Decision merits publication.

Appendix A-6
C.

The Decision Does Not Conflict with a
Prior Court Opinion.

The Decision confirms for the first time, by
applying well recognized principles of law, that a court
must deny a motion to supplement the administrative
record on appeal to the superior court of a decision of
the Board. Thus, the Decision does not conflict with a
prior opinion of this Court and provides helpful
clarification not contained in previous reported
decisions.
V.

CONCLUSION

For the reasons above, the City respectfully ask
the Court to publish the Decision dated December 9,
2019 in the above-captioned case.
DATED this 30th day of December, 2019.
OGDEN MURPHY
WALLACE, PLLC
s/ Greg Rubstello
*****
Attorneys for City of
Bainbridge Island

Reply Appendix B-1

STATE OF WASHINGTON
KITSAP COUNTY SUPERIOR COURT
PRESERVE
RESPONSIBLE
SHORELINE
MANAGEMENT, et al.,
Petitioners,
vs.
CITY OF BAINBRIDGE
ISLAND, et al.,
Respondents.

II.

NO. 15-2-00904-6
WASHINGTON
STATE
DEPARTMENT OF
ECOLOGY
RESPONSE TO
PETITIONERS
MOTION TO
SUPPLEMENT THE
RECORD

*****
ARGUMENT

The superior court acts in its appellate capacity
when it hears a challenge to an administrative
decision under the APA. Farm Supply Distributors.,
Inc. v. Wash. Util. & Transp. Comm’n, 83 Wn.2d 446,
448, 518 P.2d 1237 (1974). The bases for judicial
review of the Board’s Final Decision and Order are set
out in RCW 34.05.570(3). Relevant to this motion, this
Court may grant relief if the Board’s order, or the
statute on which the order is based, violates
constitutional provisions on its face. RCW
34.04.570(3)(a).

Appendix B-2
A.

Standard for Supplementation of the
Record

PRSM
now
seeks
to
supplement
the
administrative record in this matter with testimony
and documentary evidence. Petitioners’ Motion to
Authorize Supplementation of the Record (Pet. Mot.)
at 10-13. However, in an APA appeal, courts apply the
APA standards to the record that was before the
Board. RCW 34.05.558. Kittitas Cty. v. Eastern Wash.
Growth Mgmt. Hr’gs Bd., 172 Wn.2d 144, 155, 256
P.3d 1193 (2011). “[T]he facts are established at the
administrative hearing and the superior court acts as
an appellate court.” US West Commc’ns, Inc. v. Wash.
Util. and Transp. Comm’n, 134 Wn.2d 48; 72, 949 P.2d
1321 (1997).
Under the APA, new evidence is generally not
taken by a reviewing court. See e.g. Motley-Motley,
Inc. v. State, 127 Wn. App. 62, 76, 110 P.3d 812 (2005);
Herman v. Shorelines Hr’gs Bd., 149 Wn. App. 444,
455-56, 204 P.3d 928 (2009); Samson v. City of
Bainbridge Island, 149 Wn. App. 33, 64-65, 202 P.3d
334 (2009). The superior court does not take new
evidence unless such evidence falls within the limited
statutory exceptions of RCW 34.05.562. US West, 134
Wn.2d at 72.
New evidence is only taken if it relates to the
validity of the agency action at the time it was taken,
and is needed to decide disputed issues regarding
improper composition of the decision making body,
unlawfulness of procedure or decision making process,
or if such evidence represents material facts not
required to be determined on the agency record. RCW
34.05.562(1); Motley, 127 Wn. App. at 76. “If the
admission of new evidence at the superior court level

Appendix B-3
was not highly limited, the superior court would
become a tribunal of original, rather than appellate,
jurisdiction
and
the
purpose
behind
the
administrative hearing would be squandered.” Motley,
127 Wn. App. at 76.
Ecology agrees with PRSM that RCW 34.05.562(2),
allowing remand to the Board for fact-finding, is not
applicable in this case. Therefore one of the three
exceptions that would allow supplementation of the
record found in RCW 34.05.562(1) must apply in order
for new evidence to be taken by this court:
The court may receive evidence in
addition to that contained in the agency
record for judicial review, only if it
relates to the validity of the agency
action at the time it was taken and is
needed to decide disputed issues
regarding:
(a) Improper constitution as a
decision-making body or grounds for
disqualification of those taking the
agency action;
(b) Unlawfulness of procedure or of
decision-making process; or
(c) Material facts in rule making,
brief adjudications, or other proceedings
not required to be determined on the
agency record.

Appendix B-4
RCW 34.05.562(1). 1 PRSM’s proposed supplements to
the record in this case do not meet these narrow
exceptions. PRSM’s motion should be denied.
*****
Dated this 1st day of September, 2017.
s/ Phyllis J. Barney
*****
Attorneys for Respondent
Department of Ecology

1 PRSM does not claim that the Board was improperly
constituted, nor that material facts were not determined on the
agency record. RCW 34.05.562(1)(a), (c).

Reply Appendix C-1
IN THE SUPERIOR COURT OF THE STATE OF
WASHINGTON
IN AND FOR KITSAP COUNTY
PRESERVE
RESPONSIBLE
NO. 15-2-00904-6
SHORELINE
MANAGEMENT, et al.,
CITY OF
Plaintiffs,
BAINBRIDGE
ISLAND’S BRIEF IN
vs.
OPPOSITION TO
PETITIONERS’
CITY OF BAINBRIDGE
MOTION TO
ISLAND, et al.,
AUTHORIZE
SUPPLEMENTATION
Defendants.
OF THE RECORD
*****
B.

SUPPLEMENTATION OF THE
ADMINISTRATIVE RECORD IS STRICTLY
LIMITED UNDER RCW 34.05.562.

PRSM now seeks to supplement the record with
testimony and documentary evidence. Such
supplementation is strictly limited to specific
circumstances that warrant making an exception to
the general APA rule mandating that judicial review
be limited to the agency record. RCW 34.05.566(1);
Motley-Motley, Inc. v. State, 127 Wn. App. 62, 76, 110
P.3d 812 (2005); Wash. Indep. Tel. Ass’n v. Wash.
Utils. & Transp. Comm’n, 110 Wn. App. 498,518, 41
P.3d 1212 (2002), aff’d, 149 Wn.2d 17, 65 P.3d 319
(2003).

Reply Appendix C-2
The APA clearly prohibits the superior court from
admitting new evidence unless such evidence falls
within the statutory exceptions provided in RCW
34.05.562:
(1) The court may receive evidence
in addition to that contained in the
agency record for judicial review, only
if it relates to the validity of the agency
action at the time it was taken and is
needed to decide disputed issues
regarding:
(a) Improper constitution as a
decision-making body or grounds for
disqualification of those taking the
agency action;
(b) Unlawfulness of procedure or of
decision-making process; or
(c) Material facts in rule making,
brief
adjudications,
or
other
proceedings not required to be
determined on the agency record.
(2) The court may remand a matter
to the agency, before final disposition of
a petition for review, with directions
that the agency conduct fact-finding
and other proceedings the court
considers necessary and that the
agency take such further action on the
basis thereof as the court directs, if:
(a) The agency was required by this
chapter or any other provision of law to
base its action exclusively on a record
of a type reasonably suitable for
judicial review, but the agency failed to

Reply Appendix C-3
prepare or preserve an adequate
record;
(b) The court finds that (i) new
evidence has become available that
relates to the validity of the agency
action at the time it was taken, that
one or more of the parties did not know
and was under no duty to discover or
could not have reasonably been
discovered until after the agency
action, and (ii) the interests of justice
would be served by remand to the
agency;
(c) The
agency
improperly
excluded or omitted evidence from the
record; or
(d) A relevant provision of law
changed after the agency action and
the court determines that the new
provision may control the outcome.
As our courts have stated repeatedly, “If the
admission of new evidence at the superior court level
was not highly limited, the superior court would
become a tribunal of original, rather than appellate,
jurisdiction
and
the
purpose
behind
the
administrative hearing would be squandered.”
Motley-Motley, Inc. v. State, 127 Wn. App. 62, 76, 110
P.3d 812 (2005); Ault v. Wn. State Highway Comm’n,
77 Wn.2d 376, 378, 462 P.2d 546 (1969) (quoting Ins.
Co. of N. Am. v. Kueckelhan, 70 Wn. 2d 822, 835, 425
P.2d 669 (1967)).
Raising constitutional claims does not modify the
superior court’s mandate to limit its review to the
agency record and admit new evidence only if it meets

Reply Appendix C-4
the criteria of RCW 34.05.562. For example, in
Samson v. Bainbridge Island, 149 Wn. App. 33, 202
P.3d 334 (2009), the court addressed constitutional
and non-constitutional challenges to the Growth
Board's approval of the City’s SMP amendment. The
Samson court denied the petitioners’ motion to
supplement the record because the proposed evidence
did not meet the narrow categories provided in RCW
34.05.562. Id. at 65 (finding “there is no evidence that
one or more of the parties did not know and was under
no duty to discover the evidence until after the agency
action” as required by RCW 34.05.562(2)). Likewise,
in Bayfield Resources Co. v. Western Washington
Growth Management Hearings Board, 158 Wn. App.
866, 244 P.3d 412 (2010), the court considered
whether a critical areas zoning amendment violated
substantive due process and whether the Growth
Board’s affirmation of the amendment was not
supported by substantial evidence. Even though the
petitioners were not able to raise their constitutional
claims at the Growth Board (because constitutional
claims are beyond the Growth Board’s jurisdiction),
the appellate court conducted its analysis on the basis
of the Growth Board’s administrative record. Bayfield
Res. Co., 158 Wn. App. at 880-81, 884.
C.

PRSM’S NEW EVIDENCE DOES NOT
MEET THE CRITERIA OF RCW 34.05.562.

PRSM concedes that it cannot demonstrate any of
the
permissible
grounds
for
remanding
supplementing the record identified in RCW
34.050.562(2). Petitioners’ Motion to Authorize
Supplementation of the Record (“PRSM Motion”) at
p. 4. Respondents agree that none of these
circumstances were alleged by Petitioners, nor do they

Reply Appendix C-5
apply to the instant case. Most noteworthy, as in
Samson, none of the testimony PRSM identifies in its
motion is “new evidence [that] has become available
that relates to the validity of the agency action at the
time it was taken, that one or more of the parties did
not know and was under no duty to discover or could
not have reasonably been discovered until after the
agency action.” RCW 34.05.562(2)(b)(l); see also
Motley, 127 Wn. App. at 77 (“All of the new evidence
that the trial court allowed Motley to submit
concerning water use during the period from the late
1960s through the mid-1980s was available at the
time of the PCHB hearing. This was not new evidence
that Motley ‘did not know and was under no duty to
discover or could not have reasonably been discovered
until after the agency action.’”).
Having no basis for supplementation under RCW
34.05.562(2)(b)(l), PRSM seeks to admit new evidence
that was easily discoverable during the agency action
under the auspices that the Board’s procedure or
decision-making was unconstitutional, and therefore
“unlawful” under RCW 34.05.562(1)(b). PRSM Motion
at 4-5. However, PRSM cites no authority for the
proposition that RCW 34.05.562(1)(b)’s provision for
supplementing the agency record when there has been
“[u]nlawfulness of procedure or of decision-making
process” allows substantive challenges to the Board’s
conclusions. Indeed, no such authority exists because
the language of RCW 34.05.562(1)(b) plainly refers to
the agency’s process and procedure.
Accordingly, to demonstrate that new evidence
should be admitted under RCW 34.05.562(1)(b),
PRSM would have to show that the agency did not
correctly follow its own procedure and that the

Reply Appendix C-6
irregularity substantially prejudiced PRSM. See, e.g.,
Alpha Kappa Lambda Fraternity v. Wash. State
Univ., 152 Wn. App. 401,414, 216 P.3d 451 (2009). But
PRSM does not allege that there were any procedural
irregularities in the agency proceeding relating to the
admission of evidence or any other matter. The agency
record shows that PRSM was provided ample
opportunity to develop a record during City’s public
hearings prior to adoption of the SMP, which was then
incorporated into the record considered by the Board.
Nothing prevented PRSM from submitting testimony
and written comments related to its constitutional
claims during public comment to the City. Therefore,
PRSM’ s argument that it meets the criteria of RCW
34.05.562(1)(b) fails.
*****
A facial challenge “must be rejected if there are
any circumstances where the statute can be
constitutionally applied.” Lummi Indian Nation v.
State, 170 Wn.2d 247, 258, 241 P.3d 1220 (2010).
*****
DATED this 1st day of September, 2017.
OGDEN MURPHY WALLACE,
PLLC
By s/ James E. Haney
*****
Attorneys for Defendant
City of Bainbridge Island.

Reply Appendix D-1
FILED
Court of Appeals
Division II
State of Washington
4/30/2018 9:57 AM
No. 51109-6-II
COURT OF APPEALS,
DIVISION II, OF THE STATE OF WASHINGTON
PRESERVE RESPONSIBLE SHORELINE
MANAGEMENT, et al.,
Petitioners,
v.
CITY OF BAINBRIDGE ISLAND, et al,
Respondents,
RESPONDENT BAINBRIDGE ISLAND’S
RESPONSE TO MOTION TO MODIFY RULING
*****
B. PRSM HAS NOT BEEN DENIED THE
RIGHT TO PRESENT EVIDENCE IN
SUPPORT OF ITS CONSTITUTIONAL
CLAIMS. PRSM HAD AMPLE
OPPORTUNITY TO PRESENT ITS
EVIDENCE WHEN THE RECORD WAS
CREATED BEFORE THE CITY OF

Reply Appendix D-2
BAINBRIDGE ISLAND AND THE
DEPARTMENT OF ECOLOGY.
PRSM’s argues that the trial court deprived PRSM
of its right to present evidence on its constitutional
claims, but none of the cases cited by PRSM establish
a statutory or constitutional right to present new
evidence to a reviewing court under the APA. In fact,
no such right exists and the APA contemplates that
all evidence, including evidence supporting
constitutional claims, must be presented during the
administrative process that led to the decision under
judicial review.
“[I]n administrative proceedings, the facts are
established at the administrative hearing and the
trial court acts as an appellate court.” US West
Communications, Inc. v. Wash. Util. and Transp.
Comm’n, 134 Wn.2d 48, 72, 949 P.2d 1321 (1997).
Judicial review of a Growth Management Hearings
Board decision is limited by the APA to the local
government record that was considered by the Board.
RCW 34.05.558; Kittitas Cty v. Eastern Wash. Growth
Mgmt. Hr’gs Bd., 172 Wn.2d 144, 155, 256 P.3d 1193
(2011). New evidence is generally not taken by a
reviewing court, and when such evidence is allowed, it
must fall “squarely” within one of the statutory
exceptions set forth in RCW 34.05.562. Motley-Motley,
Inc. v. State, 127 Wn. App. 62, 76, 110 P.3d 812 (2005);
Herman v. Shoreline Hr’gs Bd., 149 Wn. App. 444,
455-56, 204 P.3d 928 (2009); Samson v. City of
Bainbridge Island, supra, 149 Wn. App. 33, 64-65. The
APA thus requires that except in the limited
circumstances described in RCW 34.05.562, a party
must exercise its right to present evidence during the
administrative proceedings that are the subject of

Reply Appendix D-3
judicial review, and not during the judicial review
process.
Washington courts have not had difficulty deciding
constitutional issues under the
evidentiary
restrictions imposed by the APA. For example, in
Samson v. Bainbridge Island, supra, this Court
addressed constitutional and non-constitutional
challenges to the Growth Board’s approval of the
City’s SMP amendment. The Samson court denied the
petitioners’ motion to supplement the record because
the proposed evidence did not fall into the narrow
exceptions provided in RCW 34.05.562. Id. at 65
(finding “there is no evidence that one or more of the
parties did not know and was under no duty to
discover the evidence until after the agency action” as
required by RCW 34.05.562(2)). Likewise, in Bayfield
Resources Co. v. Western Washington Growth
Management Hearings Board, 158 Wn. App. 866, 244
P.3d 412 (2010), the court considered whether a
critical areas zoning amendment violated substantive
due process and whether the Growth Board’s
affirmation of the amendment was not supported by
substantial evidence. Even though the petitioners
were not able to raise their constitutional claims at
the Growth Board (because constitutional claims are
beyond the Growth Board’s jurisdiction), the appellate
court conducted its analysis on the basis of the Growth
Board’s administrative record. Bayfield Res. Co., 158
Wn. App. at 880-81, 884.
*****

Reply Appendix E-1
FILED
Court of Appeals
Division I
State of Washington
1/21/2020 3:11 PM
No. 80092-2-I
COURT OF APPEALS,
DIVISION I,
OF THE STATE OF WASHINGTON
PRESERVE RESPONSIBLE SHORELINE
MANAGEMENT, et al.,
Petitioners,
v.
CITY OF BAINBRIDGE ISLAND, et al,
Respondents,
RESPONDENT CITY OF BAINBRIDGE
ISLAND’S RESPONSE TO PETITIONERS’
MOTION FOR RECONSIDERATION
*****
A.
Footnote 17 in the Washington Supreme
Court case Washington Trucking Ass’ns v. State
Employment Security Department supports the
trial court’s reliance on RCW 34.05.562(1) in
deciding whether to supplement the record.

Reply Appendix E-2
The first half of PRSM’s motion provides several
precedents PRSM argues were overlooked by this
court in the original decision. None of the provided
precedents contradict the court’s decision or are
dispositive on the issues in this case. Accordingly, the
court should deny PRSM’ s motion for reconsideration.
The first of PRSM’ s cited precedents in support of
reconsideration is the Washington Supreme Court
decision Washington Trucking Ass’ns v. State
Employment Security Department, 188 Wn.2d 198,
221 n.17, 393 P .3d 761, 773 (2017), specifically
footnote 17. Footnote 17 states:
WTA and the Carriers also assert that
the remedy is not adequate because the
ALJ in other administrative appeals
excluded
evidence
regarding
the
auditing process, and there is therefore
“very limited or no meaningful
[opportunity] to create a record” to
address the Department’s violations of
the Carriers’ constitutional rights. Br. of
Appellants at 41. Indeed, they contend
that “an APA appeal is limited to the
agency record.” Id. at 22. They are
mistaken. On judicial review, the court
can consider evidence not contained in
the agency record that “relates to the
validity of the agency action.” RCW
34.05.562 ). Our holding is therefore not
affected by the fact that the ALJ
excluded testimony regarding the
auditing process in other administrative
appeals, CP at 631-32, and the fact that
the Department moved to exclude

Reply Appendix E-3
testimony in this case because the “issue
is whether the assessment is correct, not
how the agency made the assessment.”
Id. at 560. Even if these rulings were
error, they do not render our state forum
inadequate, since they do not limit the
claims the Carriers can raise on appeal
or the relief available if those claims
succeed.
Petitioners read significantly more into this footnote
than the text will bear. In its motion for
reconsideration, PRSM asserts this footnote
constitutes the court recognizing that:
the statutory questions before an
administrative agency are substantially
different from constitutional questions
properly raised to a court; thus, a
limitation
on
the
evidence
on
administrative review has no bearing on
the admissibility of evidence to address
constitutional issues raised on judicial
review.
Pet’rs’ Mot. for Recons. at 6. Undeniably, none of these
sentiments were expressed in the footnote above.
PRSM’s extrapolation of the court’s intent is baseless,
unreasonable, and unfounded. A more reasonable
interpretation of Footnote 17 is that the Court was
simply responding to a litigant’s assertion that an
“APA appeal is limited to the agency record.” Wash.
Trucking Ass’ns, 188 Wn.2d at 221 n.17. As explained
by the Court above, this statement is inaccurate if
applied to all cases, even those not raising
constitutional claims, because the reviewing judge
has the discretion under RCW 34.05.562(1) to

Reply Appendix E-4
“consider evidence not contained in the agency records
that ‘relates to the validity of the agency action.”‘ Id.
(quoting RCW 34.05.562). The footnote in question
does nothing more than clarify that existing law is
contrary to the argument offered by a litigant in that
case that additional evidence can never be allowed. At
no point does the language in the cited footnote state
that all proposed evidence in support of new
constitutional claims must be admitted, or that new
constitutional claims are exempt from RCW
34.05.562. Such an interpretation is inconsistent with
the Supreme Court’s specific reference to the
possibility of admitting new evidence pursuant to
RCW 34.05.562.
It is undisputed that constitutional claims can be
addressed through judicial review under WAPA. Such
claims are specifically included in RCW 34.05.570,
which allows the court to grant relief from an agency
action if it determines the “statute or rule on which
the order is based[ ] is in violation of constitutional
provisions on its face or as applied.” The legislature
clearly anticipated such claims arising from an
administrative appeal when the WAPA was enacted.
Yet the legislature chose not to carve out a blanket
exception for such claims in drafting RCW 34.05.562.
Had the legislature intended to make such an
exception, it would have done so. Instead, the
legislature considered the potential need for new
evidence for constitutional claims and enacted RCW
34.05.562, which allows new evidence when the trial
court determines that the evidence is necessary to

Reply Appendix E-5
decide disputed issues. Such is the interpretation of
the Washington Supreme Court in Footnote 17. 1
Because Footnote 17 only reiterated the trial
court’s authority to admit new evidence pursuant to
RCW 34.05.562(1), there is no basis to allege that this
court overlooked binding precedent in reaching its
decision.
PRSM argues that the “APA allows the trial court
to consider evidence not contained in the agency
record that is necessary to demonstrate whether the
challenged
government
action
violated
the
constitution.” Pet’rs’ Mot. for Recons. at 6. This
assertion is true, but only when admission of that
evidence is consistent with the requirements of RCW
34.05.562. Had the trial court and the panel held that
it was proper to refuse to consider any new evidence
at all, without regard to RCW 34.05.562, PRSM’s
claim would have merit. That is not the case here.

Even assuming the Washington Supreme Court intended to
change state law within a footnote, it is well established that
“courts may not read into a statute matters that are not in it and
may not create legislation under the guise of interpreting a
statute.” Kilian v. Atkinson, 147 Wn.2d 16, 21, 50 P.3d 638
(2002). Furthermore, the Court’s statement in Footnote 17 was
made in passing and is not directly related to the holding in the
case. Such statements are dicta and are not binding on the
courts. Ass’n of Wash. Bus. v. Wash. Dep’t of Revenue, 155 Wn.2d
430,442 n.11, 120 P.3d 46, 51 (2005); see also, e.g., State v. Potter,
68 Wn. App. 134, 150 n.7, 842 P.2d 481 (1992). Footnote 17 was
intended to supplement the overall finding that the state remedy
available for challenging a tax assessment is adequate. The
Court even specifically stated in Footnote 17 that it was not
considering whether the trial court’s decision to exclude evidence
was in error because its holding was “not affected” by that
exclusion.
1

Reply Appendix E-6
The trial court in this case specifically considered
whether the proffered evidence in support of the
constitutional claims should be admitted under RCW
34.05.562 and determined the evidence was
duplicative and unnecessary. The admission or
refusal of evidence is largely within the discretion of
the trial court and will not be reversed on appeal
absent a showing of a manifest abuse of discretion.
State Dep’t of Ecology, 93 Wn. App. 329, 334, 969 P.2d
1072, 1075 (1998). PRSM has not provided any case
law or statute that requires a separate or additional
review other than RCW 34.05.562. Accordingly, the
Court
should
deny
PRSM’s
motion
for
reconsideration.
*****
PRSM provides a number of cases in which federal
courts have found, based on distinct facts, that the
constitutional claims raised were not bound by the
administrative review requirements. However, such
cases are the exception, not the rule. See, e.g., McNary
v. Haitian Refugee Ctr., Inc., 498 U.S. 479, 494, 111 S.
Ct. 888, 112 L. Ed. 2d 1005 (1991) (holding statute in
question was so limited as to not incorporate review of
constitutional issues, noting Congress “could easily
have used broader statutory language”); Webster v.
Doe, 486 U.S. 592, 603, 108 S. Ct. 2047, 100 L. Ed. 2d
632 (1988) (holding statute that removed CIA
Director’s hiring decisions from judicial review did not
restrict claims attacking the CIA’s employment
policies under Title VII of the Civil Rights Act of
1964). All other cases simply refer to the trial court’s
authority to allow additional evidence as necessary to
supplement and address gaps in the record. None of
these cases are dispositive here.
*****

Reply Appendix F-1
FILED
Court of Appeals
Division II
State of Washington
10/15/2018 1:51 PM
No. 51109-6-II
COURT OF APPEALS
OF THE STATE OF WASHINGTON
DIVISION II
Preserve Responsible Shoreline Management, et al.,
Appellants,
v.
City of Bainbridge Island, et al.,
Respondents,
CITY OF BAINBRIDGE ISLAND’S
RESPONSE BRIEF
*****
A.

THE TRIAL COURT CORRECTLY
DETERMINED THAT IT WAS ACTING IN
ITS APPELLATE CAPACITY UNDER THE
APA AND THAT ADDITIONAL EVIDENCE
ON PRSM’S CONSITITUTIONAL
CHALLENGES WAS ALLOWED ONLY IF
THE REQUIREMENTS OF RCW
34.05.562(1) WERE MET.

Reply Appendix F-2
1.

The Trial Court’s Decision was Correct
under the Washington APA.

Under RCW 36.70A.300(5), decisions of the growth
management hearings boards must be appealed to the
superior court under the Administrative Procedure
Act (“APA”), Chapter 34.05 RCW. Under APA review,
“the facts are established at the administrative
hearing and the superior court acts as an appellate
court.” US. West Commc’n, Inc. v. Wash. Utils. And
Transp. Comm’n, 134 Wn.2d 48, 72, 949 P.2d 1321
(1997). A court reviewing an agency decision under
the APA may overturn the action only if the
challenger proves that the decision, or the statute or
rule on which it is based (in this case the SMP), is
invalid under at least one of the criteria set forth in
RCW 34.05.570, including that the statute or rule is
“in violation of constitutional provisions, on its face or
as applied.” RCW 34.05.570(3)(a). Where the
administrative board below does not have jurisdiction
to hear constitutional claims, those claims may be
raised for the first time before the superior court as an
additional issue in the judicial review. Bayfield
Resources Co. v. W. Wash. Growth Mgmt. Hrgs Bd.,
158 Wn. App. 866, 881 n.8, 244 P.3d 412 (2010).
Regardless of the issues involved, “APA judicial
review is limited to the record before the agency.”
Samson v. City of Bainbridge Island, 149 Wn. App. 33,
64, 202 P.3d 334 (2009) (citing RCW 34.05.566(1)).
Accord, RCW 34.05.558 (“Judicial review of disputed
issues of fact. . . must be confined to the agency record
for judicial review as defined by this chapter”);
Kittitas County v. Eastern Wash. Growth Mgmt. Hrgs.
Bd., 172 Wn.2d 144, 155, 256 P.3d 1193 (2011). New
evidence is generally not taken by a reviewing court,

Reply Appendix F-3
and when such evidence is allowed, it must fall
“squarely” within one of the statutory exceptions set
forth in RCW 34.05.562. Motley-Motley, Inc. v. State,
127 Wn. App. 62, 76, 110 P.3d 812 (2005); Herman v.
Shoreline Hr’gs Bd., 149 Wn. App. 444, 455-56, 204
P.3d 928 (2009); Samson v. City of Bainbridge Island,
supra, 149 Wn. App. 33, 64-65. The APA thus requires
that except in the limited circumstances described in
RCW 34.05.562, a party must exercise its right to
present evidence during the administrative
proceedings that are the subject of judicial review, and
not during the judicial review process.
Given the statutes and case law cited above, the
trial court correctly determined that it was acting in
its appellate capacity in reviewing the Growth Board’s
decision under the APA and that it had authority
under the APA to review PRSM’s constitutional
claims. The trial court was also correct that new
evidence was allowed only if the requirements of RCW
34.05.562 for supplementation were met.
2.

PRSM’s Assertion of a Right to
Supplement the Record Whenever
Constitutional Claims are Raised is Not
Supported by Washington or Federal Case
Law.

Contrary to PRSM’s assertions, Washington courts
have not addressed whether a party raising
constitutional challenges to agency action for the first
time on appeal may supplement the record with
evidence specific to its constitutional claims.
*****

Reply Appendix G-1
FILED
Court of Appeals
Division II
State of Washington
12/1/2017 1:04 PM
No. 51109-6-II
COURT OF APPEALS
DIVISION II
OF THE STATE OF WASHINGTON
Preserve Responsible Shoreline Management, et al.,
Petitioners,
v.
City of Bainbridge Island, et al.,
Respondents,
RESPONDENT CITY OF BAINBRIDGE
ISLAND’S ANSWER TO MOTION FOR
DISCRETIONARY REVIEW
*****
3)

PRSM fails to carry its burden of showing
that the lawfulness of procedure is in
dispute.

PRSM identifies only one potentially applicable
exception to the APA’s general rule against
supplementation of an agency record-that provided in

Reply Appendix G-2
RCW 34.05.562(1)(b). The cited statute allows the
reviewing court to receive supplementary evidence if
it “relates to the validity of the agency action at the
time it was taken and is needed to decide disputed
issues regarding: . . . (b) Unlawfulness of procedure or
of decision-making process.” RCW 34.05.562(1)(b).
On the plain statutory language, PRSM bore the
burden of proving that the proffered evidence: (1) was
“needed to decide disputed issues”; (2) regarding
unlawfulness “of procedure or of decision-making
process;” and (3) related “to the validity of the agency
action at the time it was taken.” RCW 34.05.562(1)(b).
But nowhere in its request for discretionary review
does PRSM claim that the lawfulness of the process
and procedures giving rise to the Shoreline Master
Program is even in dispute. PRSM argues only that
the result of that process was an unconstitutional
program. Its purported basis for supplementing the
record is the fact that constitutional issues were not
before the Growth Board.
PRSM’s constitutional claims are not a challenge
to the lawfulness of the Growth Board’s procedures.
An agency’s procedures are lawful if they provide
timely notice and a full and fair opportunity to be
heard. See Jow Sin Quan v. Washington State Liquor
Control Bd., 69 Wn.2d 373, 379-80, 418 P.2d 424
(1966) (listing factors that establish lawfulness of
agency procedures). The fact that the agency, on
contested evidence, decides the matter contrary to an
appellant’s contentions does not render the procedure
unlawful. Id. (citing Deaconess Hospital v.
Washington State Highway Comm’n, 66 Wn.2d 378,
403 P.2d 54, 70 (1965)). Our Supreme Court recently
held, albeit in a different context, that an agency’s

Reply Appendix G-3
procedures adequately protect constitutional rights if
they allow a party to raise constitutional claims at
some point in the process. Washington Trucking
Associations v. State Employment Sec. Dep’t, 188
Wn.2d 198, 213, 393 P.3d 761 (2017), cert. denied sub
nom.
Washington
Trucking
Associations
v.
Washington Employment Sec. Dep’t, 17-145, 2017 WL
3324734 (U.S. Oct. 2, 2017). If the agency lacks
authority to address constitutional issues, the
procedures are still adequate if the constitutional
issues can be raised before the superior court on
review. Id. at 223.
As
such,
PRSM’s
contention—that
its
constitutional claims could not be raised before the
Growth Board—simply does not amount to an
argument that the Growth Board’s processes and
procedures were unlawful. PRSM admits that it
“extensively participated” in the public process and
“participated as petitioners” in the administrative
appeal. It acknowledges that the Growth Board
properly focused on non-constitutional issues because
of its limited jurisdiction and that the trial court now
has jurisdiction to hear PRSM’s constitutional claims.
PRSM thus utterly fails to show a disputed issue
regarding the lawfulness of the Growth Board’s
process and procedure. It was given notice and an
opportunity to be heard, it participated extensively,
and it does not claim that the process or procedure
employed by the Growth Board was unlawful. On this
basis alone, it fails to justify relief under RCW
34.05.562(1)(b).
*****

Reply Appendix G-4
(c)

PRSM failed to justify admission of scientific
evidence that was admissible in the
administrative proceedings.

The last item of supplementary evidence identified
in the Motion for Discretionary Review is the
testimony of Kim Schaumburg, proffered as “a
recognized expert familiar with the science
underlying the SMP.” Specifically, PRSM contends
that Ms. Schaumburg would address a “gap” in the
scientific record. This alleged “gap” relates to whether
it is appropriate to rely on freshwater science in
establishing saltwater regulations.
But filling a “gap” in the administrative record is
not an appropriate basis for allowing supplementary
evidence. “A superior court may not allow additional
evidence where the proponent of the evidence alleges
only that the record is incomplete.” Herman v. State of
Washington Shorelines Hearings Bd., 149 Wn. App.
444, 455, 204 P.3d 928 (2009) (citing Lewis County v.
Pub. Employment Relations Comm’n, 31 Wn. App.
853, 861, 644 P.2d 1231 (1982)). The trial court
therefore properly denied PRSM’s request.
*****

